FILED

WAIVER

AUG 1 2 2021

Supreme Court of the United States

OFFICE OF THE CLERK
SUPREME COURT, U.S.

No. 21-5208
Samuel W. Wani
(Petitioner)

v.

George Fox University, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

a I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):
Dominick Fix-Gonzalez

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
5i

I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing nstructions: Mail the original signed form
to: Supreme Cou Attn: Celerk'sJOffice, 1 First street, NE, Washington, D.C. 20543).

Signature
Date:

/04.
/

(Type or print) Name Troy G. Sexton
0 Ms.
El Mr.

0 Mrs.

0 Miss

Firm Motschenbacher & Blattner LLP
Address

117 SW Taylor Street,

Suite 300

City & State Portland, OR
Phone

(503) 417-0517

Zip 97904-3029
Email tsexton(portlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc: Samuel W. Wani - Petitioner pro se; Janet Schroer - Attorney for Respondent,
Thomas Croy; Martin W. Jaqua - Attorney for remaining Respondents

